No. 19-1135

IN THE

Supreme Court of the United States

d

DIGNITY HEALTH d/b/a MERCY SAN JUAN MEDICAL CENTER ,
Petitioner,

—v.—
EVAN MINTON ,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO THE
CALIFORNIA COURT OF APPEAL, FIRST APPELLATE DISTRICT

BRIEF IN OPPOSITION

Christine Haskett
Lindsey Barnhart
Morgan E. Lewis
COVINGTON & BURLING LLP
Salesforce Tower
415 Mission Street, Suite 5400
San Francisco, CA 94105
Elizabeth O. Gill
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION OF
NORTHERN CALIFORNIA
39 Drumm Street
San Francisco, CA 94111

Amanda C. Goad
Counsel of Record
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION OF
SOUTHERN CALIFORNIA
1313 West 8th Street
Los Angeles, CA 90017
(213) 977-9500
agoad@aclusocal.org

Attorneys for Respondent
(Counsel continued on inside cover)

Louise Melling
Rose A. Saxe
James D. Esseks
Lindsey Kaley
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
Daniel Mach
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, DC 20005

i
QUESTIONS PRESENTED:
1. Is the denial of a demurrer, a nonfinal order
under California law, subject to this Court’s review on
a petition for certiorari, particularly where the lower
court’s decision did not resolve the critical factual
issues upon which the petition is based?
2. Do the free exercise, free speech, or free
association guarantees of the First Amendment
require dismissal at the pleading stage of a complaint
alleging that a hospital intentionally discriminated
against a transgender patient when it refused to allow
his doctor to perform a hysterectomy procedure that it
routinely
allows
doctors
to
perform
on
nontransgender individuals?

ii
TABLE OF CONTENTS
QUESTIONS PRESENTED: .......................................i
TABLE OF AUTHORITIES ....................................... iv
INTRODUCTION ........................................................ 1
STATEMENT OF THE CASE .................................... 4
REASONS FOR DENYING THE PETITION .........10
I.

This Court lacks jurisdiction to review
the decision below because it is a nonfinal
judgment, and the federal questions Dignity
Health raises in the Petition were properly
not addressed below. .......................................... 10
A. There has been no “final judgment” by the
California courts on the federal questions
presented by Dignity
Health. .......................................................... 11
B. The federal questions on which
Dignity Health seeks review have not been
properly presented to the state courts
because they rest on evidence outside the
courts’ purview at the demurrer stage. ....... 16

II.

The decision below is a poor vehicle for
resolution of the federal questions Dignity
Health seeks to raise. ........................................ 18
A. The factual predicates for Dignity Health’s
petition are not in the record on review
of a decision on a demurrer. ......................... 19

iii
B. Resolution of the constitutional questions
Dignity Health raises may be unnecessary
to final disposition of this case. .................... 21
III. There is no conflict among the circuits
or state high courts, and the decision
below is correct................................................... 23
A. Application of the Unruh Act here
does not violate Dignity Health’s
free exercise rights. ...................................... 24
B. The court of appeal correctly held that
application of the Unruh Act here does
not violate Dignity Health’s free speech
or free association rights. ............................. 27
IV. There is no reason to hold this petition
for resolution of Fulton v. City of
Philadelphia. ..................................................... 30
CONCLUSION .......................................................... 31
APPENDIX
Appendix F:
First Amended Verified Complaint
for Declaratory and Injunctive Relief and
Statutory Damages in the Superior Court
of California for the County of
San Francisco ................................................... App. 28

iv
TABLE OF AUTHORITIES
Page(s)
Cases
ABF Capital Corp. v. Berglass,
130 Cal. App. 4th 825 (2005) ............................... 18
Adams v. Robertson,
520 U.S. 83 (1997) .......................................... 17, 22
ASARCO Inc. v. Kadish,
490 U.S. 605 (1989) .............................................. 12
Buller v. Sutter Health,
160 Cal. App. 4th 981 (2008) ................................. 4
Camreta v. Greene,
563 U.S. 692 (2011) .............................................. 22
Cox Broad. Corp. v. Cohn,
420 U.S. 469 (1975) ............................ 12, 13, 14, 15
EEOC v. Catholic Univ. of Am.,
83 F.3d 455 (D.C. Cir. 1996) ................................ 27
Employment Div. v. Smith,
494 U.S. 872 (1990) ...................................... passim
Espinoza v. Montana Dep’t of Revenue,
No. 18-1195, __S. Ct. __, 2020 U.S.
LEXIS 3518, slip op. (June 30, 2020)
(Roberts, J.) .......................................................... 26
Flynt v. Ohio,
451 U.S. 619 (1981) .............................................. 15

v
Fort Wayne Books, Inc. v. Indiana,
489 U.S. 46 (1989) ................................................ 13
Fulton v. City of Philadelphia,
No. 19-123 ...................................................... 30, 31
Heart of Atlanta Motel, Inc. v. United
States,
379 U.S. 241 (1964) .............................................. 24
Hishon v. King & Spalding,
467 U.S. 69 (1984) .......................................... 23, 28
Hosanna-Tabor Evangelical Lutheran
Church & Sch. v. EEOC,
565 U.S. 171 (2012) .............................................. 26
Hudgens v. N.L.R.B.,
424 U.S. 507 (1976) .............................................. 22
Hurley v. Irish-American Gay, Lesbian
& Bisexual Group of Boston,
515 U.S. 557 (1995) ........................................ 28, 29
Local No. 438 Constr. & Gen. Laborers’
Union v. Curry,
371 U.S. 542 (1963) .............................................. 11
Masterpiece Cakeshop, Ltd. v. Colo.
Civil Rights Comm’n,
138 S. Ct. 1719 (2018) ................................ 9, 24, 27
Matal v. Tam,
137 S. Ct. 1744 (2017) .......................................... 22

vi
National Institute of Family & Life
Advocates v. Becerra,
138 S. Ct. 2361 (2018) .......................................... 29
Newman v. Piggie Park Enters., Inc.,
390 U.S. 400 (1968) .............................................. 24
Nike, Inc. v. Kasky,
539 U.S. 654 (2003) ........................................ 11, 13
Our Lady of Guadalupe School v.
Morrissey-Berru,
No. 19-267, slip op. (July 8, 2020)
(Alito, J.) ............................................................... 26
Pope v. Atlantic Coast Line R.R. Co.,
345 U.S. 379 (1953) .................................. 11, 12, 16
Rumsfeld v. Forum for Acad. &
Institutional Rights, Inc.,
547 U.S. 47 (2006) ................................................ 28
Trinity Lutheran Church of Columbia,
Inc. v. Comer,
137 S. Ct. 2012 (2017) .................................... 25, 26
Webb v. Webb,
451 U.S. 493 (1981) .............................................. 17
Statutes
28 U.S.C. § 1257(a) ........................................ 10, 11, 12
RICO .......................................................................... 13
Unruh Civil Rights Act,
Cal. Civil Code § 51 ...................................... passim

vii
Constitutional Provisions
U.S. Const., amend. I ........................................ passim

1
INTRODUCTION
Dignity Health seeks this Court’s intervention at
the pleading stage, requesting review of the denial of
a demurrer, before any factual development of the
allegations in Evan Minton’s complaint, and before
any of Dignity Health’s contrary factual assertions
can even be considered, much less tested. This
procedural posture is sufficient to deny certiorari, for
two reasons. First, the Court lacks jurisdiction,
because the denial of a demurrer is not a final order,
and none of the exceptions to the rule barring review
of state court nonfinal orders applies here. And
second, even if jurisdiction existed, Dignity Health’s
petition rests on factual assertions that are not yet
part of the record, making this case an inappropriate
vehicle to resolve the questions Dignity Health
presents.
The explicit premise of the petition for certiorari is
that Dignity Health turned Mr. Minton away not
because he was transgender, as his complaint alleges,
but based on “the Ethical and Religious Directives
that govern Catholic health care institutions.” Pet. i.
Accordingly, the petition maintains that the decision
below “compel[s] a religiously affiliated hospital to
allow—and thereby endorse and be associated with—
medical procedures that violate its longstanding
deeply held religious beliefs.” Id.
Dignity Health’s characterization of the case,
however, misrepresents the nature of Mr. Minton’s
claim. Mr. Minton does not allege impermissible
discrimination because he was denied a hysterectomy
based on neutral religious directives. Rather, he

2
alleges he was intentionally discriminated against
because he is transgender. He alleges that he was
denied the same procedure that Dignity Health
permits many other nontransgender patients to
undergo, at the same facility, in a host of other,
comparable circumstances. At the demurrer stage,
those allegations must be accepted as true.
Dignity Health’s petition does not contend that it
has a constitutional right to discriminate against
patients because they are transgender, as Mr. Minton
alleged; it instead insists that it does not discriminate
against transgender patients. That is a factual
dispute that cannot be resolved at this stage of the
case.
Accordingly, the California Court of Appeal
decided this dispute “on narrower grounds” than the
petition pretends. Pet. App. 2. It merely held that
Mr. Minton had pleaded sufficient facts to support an
inference that Dignity Health intentionally
discriminated against him because he is transgender,
and in doing so denied him the “full and equal” access
to medical care that California law requires. Pet. App.
13. Dignity Health’s contrary assertions, it reasoned,
turned on facts that could not be considered, much less
resolved, on demurrer. The court below therefore
declined to address whether the Ethical and Religious
Directives for Catholic Health Care Services
(“Directives”)—which prohibit “direct sterilization”—
were applied in a discriminatory way, because their
application in this case cannot be considered on
demurrer.

3
The court of appeal expressly left open for
summary judgment or trial Dignity Health’s
contentions that it did not violate the Unruh Civil
Rights Act when it cancelled Mr. Minton’s
hysterectomy, either because it did not intentionally
discriminate against him based on his gender
identity, or because its offer of an alternative location
for his surgical procedure meant that Mr. Minton was
not denied the “full and equal” access that state law
requires. If, after development of the factual record,
Dignity Health prevails on either state-law-based
argument, there will be no need to address any
constitutional questions.
Because the central arguments in the petition—
which rely on Dignity Health’s characterization of the
facts, not Mr. Minton’s well-pleaded allegations—
have not been properly presented to or finally decided
by California’s courts, the petition does not meet
statutory requirements for this Court to exercise
jurisdiction. For similar reasons, even if there were
jurisdiction, this case is an inappropriate vehicle for
addressing the constitutional issues Dignity Health
raises. Resolution of those questions, and indeed
whether this case requires their resolution at all, will
depend on the development of facts regarding Dignity
Health’s policies and practices as well as its specific
dealings with Mr. Minton. At the demurrer stage,
Dignity Health’s version of the relevant, disputed
facts is not in the record.
In any event, Dignity Health does not argue that
the decision below, which holds only that the First
Amendment does not categorically preclude a claim
that a religiously affiliated hospital’s decision to

4
intentionally deny services to a patient because he is
transgender violates a public accommodations law,
conflicts with any other decision of a state supreme
court or federal court of appeals.
The Court should deny certiorari.
STATEMENT OF THE CASE
This case arises from the decision of Mercy San
Juan Medical Center (“Medical Center”), a
Sacramento-area hospital owned by Dignity Health,
to bar a surgeon from performing a hysterectomy on
Evan Minton, a transgender man who sought the
procedure as a medically necessary step in his gender
transition. This appeal arises from a demurrer to the
amended complaint, so the record is limited to the
allegations of that complaint, which must be accepted
as true. Buller v. Sutter Health, 160 Cal. App. 4th 981,
985-86 (2008).
As alleged in the complaint, Dignity Health
regularly permits surgeons—including Mr. Minton’s
surgeon,
Dr.
Lindsey
Dawson—to
perform
hysterectomies at the Medical Center. Supp. App. 36
¶ 20. Dr. Dawson therefore scheduled Mr. Minton’s
hysterectomy to be performed there. But after Mr.
Minton informed hospital staff that he was
transgender, the hospital administrators informed
Dr. Dawson that she would not be permitted to
perform Mr. Minton’s hysterectomy. Id. ¶¶ 21-22. The
Medical Center’s president, Brian Ivie, informed Dr.
Dawson that she would “never” be allowed to perform
a hysterectomy on Mr. Minton at the Medical Center
because it was scheduled as part of a course of
treatment for gender dysphoria, as opposed to any

5
other medical diagnosis. Id. ¶¶ 23-24. Gender
dysphoria is “a medical condition unique to
individuals whose gender identity does not conform to
the sex they were assigned at birth,” id. at 43 ¶ 48,
and Mr. Minton’s hysterectomy was medically
necessary to treat his gender dysphoria. Id. at 35 ¶ 18.
Yet Dignity Health refused to permit Mr. Minton to
obtain this medically necessary care at the Medical
Center, despite routinely allowing surgeons to
perform hysterectomies for nontransgender patients
there, including for “chronic pelvic pain and uterine
fibroids.” Id. at 42 ¶ 40.
When the Medical Center initially informed Dr.
Dawson that it had unilaterally cancelled
Mr. Minton’s procedure, it offered no other
arrangement. Only after Dr. Dawson and Mr. Minton
undertook significant efforts to bring media and
political attention to Dignity Health’s actions, and
after Mr. Minton’s attorney contacted the Medical
Center, did Mr. Ivie offer an alternative location for
the hysterectomy, at a Methodist hospital also owned
by Dignity Health. Id. at 38-41 ¶¶ 28-35. Mr. Minton
was able to get the hysterectomy three days later, but
experienced “great anxiety and grief” at being initially
turned away for a time-sensitive procedure because he
was transgender. Id. at 37 ¶ 26; see also id. at 42 ¶ 41.
Mr. Minton sued Dignity Health for violating the
Unruh Civil Rights Act, California’s public
accommodations law. Specifically, Mr. Minton alleged
that Dignity Health intentionally denied him “full and
equal access” to the Medical Center because he is
transgender. Id. at 43-44 ¶¶ 44-53; see also Cal. Civil
Code § 51.

6
Dignity Health demurred, arguing that (1) it did
not discriminate against Mr. Minton because of his
transgender status, but merely applied a neutral and
religiously based policy, the Directives promulgated
by the United States Conference of Catholic Bishops,
to disallow his surgery; (2) it did not deny Mr. Minton
“full and equal” access to care because he later was
able to obtain the hysterectomy at a different hospital
also owned by Dignity Health but not subject to the
Directives; and (3) compelling it to allow Dr. Dawson
to perform the procedure at the Medical Center in
violation of the Directives would contravene Dignity
Health’s federal and state free exercise, free speech,
and free association rights. ROA 162-184. 1
The trial court sustained Dignity Health’s
demurrer as to the amended complaint on state law
grounds. Pet. App. 21. The court assumed, based on
the allegations in the complaint, that Dignity Health’s
decision to cancel Mr. Minton’s procedure was
substantially motivated by his gender identity. Id. at
22. But it concluded that because Mr. Minton
ultimately obtained his hysterectomy three days later,
he had not been deprived of “full and equal access” to
the care at issue, and therefore had not alleged a
violation of the Unruh Act. Id. at 21-22. Because the
trial court concluded that Dignity Health had not
violated the Unruh Act, it did not address Dignity
Health’s constitutional defenses. Id. at 20-22.
The California Court of Appeal reversed. It
acknowledged that “the parties and several amici
1

“ROA” citations refer to the Record on Appeal before the
California Court of Appeal.

7
curiae regard the action as presenting a fundamental
conflict between plaintiff’s right to full and equal
access to medical care and the hospital’s right to
observe its religious principles,” but concluded “that
the present appeal may be resolved on narrower
grounds.” Id. at 2. Emphasizing that all allegations of
the complaint must be accepted as true at the
demurrer stage, it concluded that Mr. Minton had
alleged sufficient facts to support an inference that
Dignity Health intentionally discriminated against
him because of his gender identity in violation of the
Unruh Act. In particular, the court noted that he had
alleged that hysterectomies for nontransgender
patients were routinely performed in the Medical
Center, and that the Medical Center cancelled his
appointment and barred his surgery only after
learning that he was transgender. Id. at 3-4. The court
found that “[d]enying a procedure as treatment for a
condition that affects only transgender persons
[gender dysphoria] supports an inference that Dignity
Health discriminated against Minton based on his
gender identity.” Id. at 10.
The court rejected each of the arguments Dignity
Health made in support of affirming the demurrer.
First, it addressed Dignity Health’s claim that it had
not actually discriminated against Mr. Minton
because he was transgender, but had merely applied
neutral religious Directives barring “[d]irect
sterilization . . . ,whether permanent or temporary.”
Pet. App. 9. The court of appeal acknowledged that
neutral practices that merely have a disparate impact
on a protected group do not violate the Unruh Act. Id.
at 8-9. But it concluded that “while Dignity Health
may be able to assert reliance on the Directives as a

8
defense to Minton’s claim, the matter is not suitable
for resolution by demurrer” because none of those
facts appear in the complaint. Id. at 10. Moreover, if
Dignity Health sought to defend on summary
judgment or at trial by citing its reliance on the
Directives, the court noted, “Minton may attempt to
establish that the hospital applied the Directives in a
discriminatory manner.” Id. At the demurrer stage,
however, because Dignity Health’s invocation of the
Directives was “contrary to the allegations in the
complaint,” the defense was “not susceptible to
resolution by demurrer.” Id. at 10-11.
Dignity Health argued in addition that, even if its
actions were motivated by Mr. Minton’s gender
identity, it did not violate the Unruh Act because, by
providing an alternative location for the surgery, it
did not deny him “full and equal access” to medical
care. The court of appeal held that, on the allegations
of the complaint, Dignity Health initially denied Mr.
Minton any service at all, and only offered an
alternative in response to subsequent media and
political pressure. Id. at 13. While this belated offer
may have “substantially reduced the impact of the
initial denial of access,” the court reasoned, it “did not
undo the fact that the initial withholding of facilities
was absolute, unqualified by an explanation that
equivalent facilities would be provided at an
alternative location.” Id. “[I]t cannot constitute full
equality under the Unruh Act to cancel [Mr. Minton’s]
procedure for a discriminatory purpose, wait to see if
his doctor complains, and only then attempt to
reschedule the procedure at a different hospital.” Id.
at 14.

9
The court also rejected Dignity Health’s free
exercise and free speech arguments, emphasizing that
“upholding Minton’s claim does not compel Dignity
Health to violate its religious principles if it can
provide all persons with full and equal medical care at
comparable facilities not subject to the same religious
restrictions.” Id. at 15. But to the extent that Dignity
Health had discriminated against Mr. Minton
because of his gender identity, and had not provided a
comparable service elsewhere, the court concluded
that its free exercise claim failed because the state has
a compelling interest in barring such discrimination,
and the prohibition was narrowly tailored to serve
that end. It cited this Court’s dictate in Masterpiece
Cakeshop, Ltd. v. Colo. Civil Rights Comm’n, 138 S.
Ct. 1719, 1727 (2018), that religious objections “do not
allow business owners and other actors in the
economy and in society to deny protected persons
equal access to goods and services under a neutral and
generally applicable public accommodations law.” Pet.
App. 15. And it held that requiring a hospital to allow
a doctor to perform a medical procedure did not
compel speech in violation of the First Amendment.
Id. at 15-16.
The California Supreme Court summarily denied
Dignity Health’s petition for review. Id. at 19.

10
REASONS FOR DENYING THE PETITION
I.

This Court lacks jurisdiction to review the
decision below because it is a nonfinal
judgment, and the federal questions
Dignity Health raises in the Petition were
properly not addressed below.

This Court lacks jurisdiction to hear this petition
both because the decision below is a nonfinal
judgment and because the federal claims that Dignity
Health seeks to present here were appropriately not
resolved in the state courts, as they rest on evidence
the court cannot consider at the demurrer stage.
This Court’s jurisdiction over state court decisions
is governed by 28 U.S.C. § 1257(a), which states in
pertinent part:
Final judgments or decrees rendered by
the highest court of a State in which a
decision could be had, may be reviewed
by the Supreme Court by writ of
certiorari . . . where the validity of a
statute of any State is drawn in question
on the ground of its being repugnant to
the Constitution, treaties, or laws of the
United States.
The Court has interpreted this statute to require
both that the decision to be reviewed is a “final
decision,” and that the federal questions to be
reviewed have been properly presented to or
addressed by the highest state court. Neither
requirement is met here.

11
A.

There has been no “final judgment”
by the California courts on the
federal questions presented by
Dignity Health.

This Court’s appellate jurisdiction to review state
court decisions is limited to “final judgments . . .
rendered by the highest court of a State.” 28 U.S.C.
§ 1257(a); see also Nike, Inc. v. Kasky, 539 U.S. 654,
658 (2003) (“Congress has granted this Court
appellate jurisdiction with respect to state litigation
only after the highest state court in which judgment
could be had has rendered a final judgment or
decree.”). This statutory dictate serves important
purposes of federalism by minimizing premature
federal intervention in state legal processes. It also
ensures that this Court does not unnecessarily reach
constitutional questions when cases may yet be
resolved on state law grounds.
Dignity Health concedes, as it must, that this is a
nonfinal judgment. Pet. 5. As this Court has stated,
“[o]rdinarily, then, the overruling of a demurrer, like
the issuance of a temporary injunction, is not a ‘final’
judgment.” Pope v. Atlantic Coast Line R.R. Co., 345
U.S. 379, 382 (1953); see also Local No. 438 Constr. &
Gen. Laborers’ Union v. Curry, 371 U.S. 542, 551
(1963) (stating that “ordinarily the overruling of a
demurrer is not a final judgment”); cf. Nike, 539 U.S.
at 654-60 (dismissing writ of certiorari as
improvidently granted where petitioner relied on
First Amendment defense but facts central to the
defense had not been developed at demurrer stage).
Further, this case does not fit any of the four narrow
categories of cases this Court has identified that may

12
be treated as final under Section 1257(a) “without
awaiting the completion of the additional proceedings
anticipated in the lower state courts.” Cox Broad.
Corp. v. Cohn, 420 U.S. 469, 477 (1975). Indeed,
Dignity Health does not even assert that any of the
first three exceptions applies, and invokes only the
fourth.
The first exception applies where, despite the
existence of further state proceedings, “the federal
issue is conclusive or the outcome of further
proceedings preordained” with only “mechanical entry
of judgment” remaining. Cox, 420 U.S. at 479; Pope,
345 U.S. at 382. That is plainly not the case here,
where Dignity Health’s defenses that it merely
applied neutral religious Directives, and that it
provided an adequate alternative location, have not
been developed or adjudicated.
The second exception applies where “the federal
issue, finally decided by the highest court in the State,
will survive and require decision regardless of the
outcome of future state-court proceedings.” Cox, 420
U.S. at 480. This exception does not apply because the
decision below expressly rested “on narrower
grounds,” and did not address, much less resolve, the
constitutional issue Dignity Health seeks to raise
here: namely, whether state law can compel it to
contravene its allegedly neutral religious Directives.
See id.; ASARCO Inc. v. Kadish, 490 U.S. 605, 612
(1989). The courts below have not yet even considered
the Directives or their role in the events alleged.
The third exception governs “where the federal
claim has been finally decided, with further

13
proceedings on the merits in the state courts to come,
but in which later review of the federal issue cannot
be had, whatever the ultimate outcome of the case.”
Cox, 420 U.S. at 481. That is not the case here, as
Dignity Health will be able to pursue its First
Amendment claims once the Directives and their role
in the dispute are properly presented and adjudicated.
All the court below held was that the Directives could
not be considered on a demurrer. See Pet. App. 15.
The only exception Dignity Health claims is
applicable here is the fourth one, but it cannot satisfy
that exception’s requirements either. Pet. 5; Cox, 420
U.S. at 482-83. This exception requires three
showings, all of which must be satisfied: that (1) “the
federal issue has been finally decided in the state
courts with further proceedings pending in which the
party seeking review might prevail on nonfederal
grounds,” (2) “reversal of the state court on the federal
issue would be preclusive of any further litigation on
the relevant cause of action,” and (3) “refusal
immediately to review the state-court decision might
seriously erode federal policy.” Nike, 539 U.S. at 65859 (Stevens, J., concurring) (quoting Cox, 420 U.S. at
482-83) (internal quotation marks omitted); see also
Fort Wayne Books, Inc. v. Indiana, 489 U.S. 46, 55-56
(1989) (discussing federal policy implications under
Cox of a facial challenge to the validity of Indiana’s
RICO statute).
This case fails all three prongs. First, the federal
issues Dignity Health seeks to raise here were not
decided in the court of appeal, because, as the court
explained, the Directives and their application—
including the question whether they were neutrally

14
applied—were not properly before it on demurrer. Pet.
App. 10. Second, reversing the state court on the
question presented would not be “preclusive of any
further litigation,” because there is no “state court”
decision “on the federal issue” to be “revers[ed]” here.
Id. at 5. The courts below have not yet adjudicated
whether Dignity Health’s denial of medically
necessary care was in fact motivated by the
Directives, whether the Directives were neutrally
applied, or whether the denial was motivated by
gender identity discrimination, much less whether
enforcing the Unruh Act against Dignity Health in
some still-unknown circumstances violates the First
Amendment.
Third,
allowing
Mr.
Minton’s
discrimination suit to proceed to discovery when the
complaint’s allegations supported an inference of
impermissible discrimination, while acknowledging
that upon further factual development Dignity Health
may avoid any liability whatsoever, does not
“seriously erode federal policy” such that it would be
“intolerable to leave unanswered” the questions
Dignity Health seeks to resolve prematurely here.
Cox, 420 U.S. at 483-85 (quoting Miami Herald Publ’g
v. Tornillo, 418 U.S. 241, 247 n.6 (1974)). In short, if
Dignity Health’s rendition of the facts is borne out,
and if it is nonetheless found liable, any constitutional
questions can be fully and fairly adjudicated at that
point. But it is possible that no Unruh Act violation
will be found, in which case no federal question will
need to be reached.
Dignity Health’s contentions regarding its
provision of an alternative location for Mr. Minton’s
surgery further underscore the nonfinal character of
the judgment below. Dignity Health’s petition

15
suggests that the court of appeal ruled that the offer
of an alternative location was insufficient to afford
“full and equal” treatment to Mr. Minton. Pet. 13, 2830. But the court instead held that, on the allegations
of the complaint, it violates state law to deny
treatment because of transgender status without
offering an alternative location, and to make such an
offer only after an initial cancellation that was
“absolute.” Pet. App. 11-16. Dignity Health does not
contend that the court of appeal’s holding that one
must offer such an alternative in the first place
violates its religious commitments. And to the extent
it disputes the facts concerning the timing of the offer
of this alternative, that issue remains open for
adjudication once Dignity Health presents its version
of the facts.
The final judgment rule is a statutory constraint
imposed by Congress on this Court’s jurisdiction. It is
therefore important to keep the exceptions to the rule
strictly circumscribed. An expansive construction of
the exceptions would swallow the rule and would
contradict the statute’s plain meaning. See Flynt v.
Ohio, 451 U.S. 619, 622-23 (1981) (where petitioner
sought to raise First Amendment defense to obscenity
prosecution, resolution “can await final judgment
without any adverse effect upon important federal
interests. A contrary conclusion would permit the
fourth [Cox] exception to swallow the rule. Any federal
issue finally decided on an interlocutory appeal in the
state courts would qualify for immediate review.”).
And as noted above, the “final judgment” rule serves
important
federalism
interests
and
avoids
unnecessary constitutional adjudication.

16
Here, the state courts have not reached a final
judgment on the federal questions presented by
Dignity Health; they have declined to address them
because they are premature. Indeed, it is unclear
whether these federal questions will ever need to be
decided, because the state courts have not even
reached a final judgment on the state law defenses
raised by Dignity Health. If Dignity Health can show
that it did not discriminate against Mr. Minton
because he is transgender, or that it provided him
with an alternative that constituted “full and equal”
access, it may prevail under the Unruh Act.
Accordingly, granting review is barred by the final
judgment rule, without which “litigants would be free
to come [to the Supreme Court] and seek a decision on
federal questions which, after later proceedings,
might subsequently prove to be unnecessary and
irrelevant to a complete disposition of the litigation.”
Pope, 345 U.S. at 381–82.
B.

The federal questions on which
Dignity Health seeks review have
not been properly presented to the
state courts because they rest on
evidence
outside
the
courts’
purview at the demurrer stage.

The predicate for Dignity Health’s petition is that
it turned away Mr. Minton based on the neutral
application of its religious Directives. Dignity Health
references the Directives more than twenty times in
its petition, including in the Questions Presented, the
Statement of the Case, and the Reasons for Granting
the Petition. Dignity Health simply denies Mr.
Minton’s allegation that it turned him away because

17
he is transgender, asserting that it “does not
discriminate against any category of patients,
including transgender individuals.” Pet. 1.
But the question whether it violates the First
Amendment to require Dignity Health to provide
services that contravene its religious Directives is not
properly presented here because, as the court of
appeal explained, the role those Directives played in
Mr. Minton’s denial of treatment is beyond the four
corners of the complaint, and therefore cannot be
resolved on demurrer. Pet. App. 10. Even if the
Directives could be treated as in play at this stage,
there is still the question whether they were
neutrally, or discriminatorily, applied. For that
reason, the court below did not address the issue; it
remains to be addressed once Dignity Health makes a
record and the facts are developed.
With limited exceptions, this Court “will not
consider a petitioner’s federal claim unless it was
either addressed by, or properly presented to, the
state court that rendered the decision [the Supreme
Court has] been asked to review.” Adams v. Robertson,
520 U.S. 83, 86 (1997). A petitioner has not properly
raised a federal question where the question was not
raised in accordance with a state’s laws of civil
procedure. Webb v. Webb, 451 U.S. 493, 498 n.4 (1981).
The California Court of Appeal was not properly
presented with the federal questions on which Dignity
Health now seeks review. Addressing these questions
would have required the court below to assume facts
not included in Mr. Minton’s complaint, which
California courts cannot do on demurrer. See, e.g.,

18
ABF Capital Corp. v. Berglass, 130 Cal. App. 4th 825,
833–34 (2005) (citing Moore v. Conliffe, 7 Cal. 4th 634,
638 (1994); Montclair Parkowners Ass’n v. City of
Montclair, 76 Cal. App. 4th 784, 790 (1999)) (“When
considering a demurrer, the trial court must accept as
true all material facts pleaded in the complaint and
those arising by reasonable implication.”). As
explained by the court of appeal, the question whether
Dignity Health canceled Mr. Minton’s surgery
because of its religious beliefs, as expressed in the
Directives, “is not suitable for resolution by
demurrer,” and so could not have been addressed by
the ruling below. Pet. App. 10.
Accordingly, both because the judgment below is
not final, and because the factual predicate for Dignity
Health’s questions presented is not properly before
the Court, this Court lacks jurisdiction, and the
petition should be denied on that ground alone.
II.

The decision below is a poor vehicle for
resolution of the federal questions Dignity
Health seeks to raise.

For many of the same reasons that the Court lacks
jurisdiction, this case would be a poor vehicle even if
jurisdiction existed. Dignity Health’s petition rests on
the premise that California law has compelled it to
provide hysterectomies in violation of neutrally
applied religious Directives. But as noted above, the
Directives and their role in Mr. Minton’s treatment
have not been tested and are not properly before the
Court. And once the facts are developed, this case
could well be resolved on state law grounds, making
any constitutional questions unnecessary to reach. In

19
any event, should the constitutional questions Dignity
Health seeks to present ever need to be addressed in
this case, they are best resolved on the basis of a
factual record, which is entirely lacking here.
A.

The factual predicates for Dignity
Health’s petition are not in the
record on review of a decision on a
demurrer.

The petition rests on the claim that the California
Court of Appeal decision “compel[s] a religiously
affiliated hospital to allow medical procedures that
violate its longstanding, deeply held religious beliefs,”
Pet. i. But the court of appeal required nothing of the
sort. It held only that the complaint alleged sufficient
facts to support an inference of intentional genderidentity discrimination, and Dignity Health does not
assert a religious belief in such discrimination. The
court below explicitly noted that the issue of the
application of the religious Directives could not be
adjudicated on a demurrer because it is beyond the
allegations of the complaint. Pet. App. 10-11 (“Dignity
Health’s contention that its action was motivated by
adherence to neutral Directives . . . contrary to the
allegations in the complaint, is not susceptible to
resolution by demurrer.”). 2 For that same reason, the
2

The First Amended Complaint does not even mention the
Directives except in a quote from an after-the-fact Dignity
Health press release. Supp. App. 38-39 ¶ 31. While the superior
court took judicial notice of the existence of the Directives, Pet.
App. 22 and ROA 432, the question of what role the Directives
actually played in Dignity Health’s decision to cancel
Mr. Minton’s surgery has not been factually developed, much
less decided by the state courts.

20
decision below in no way requires Dignity Health to
violate the Directives. Because the Directives are not
properly before the Court, this case is a poor vehicle
to address their import.
The sole holding of the court of appeal—that
allegations
that
the
hospital
intentionally
discriminated against a patient because he is
transgender state a claim under the Unruh Act—is
not a holding against which Dignity Health seeks to
present a First Amendment defense. Dignity Health
does not claim it has a religiously based right to
intentionally discriminate against patients because
they are transgender. On the contrary, it contends
that it does not discriminate on that basis. See Pet. 8
(“Mercy provides compassionate care to all persons
without discrimination”); id. at 7 (“Mercy welcomes
transgender patients in its facilities every day and
offers those patients any procedure or service that is
not prohibited by Catholic religious doctrine.”). But it
is beyond dispute that Dignity Health cannot prevail
on a demurrer simply by denying the well-pleaded
factual allegations in Mr. Minton’s complaint.
Accordingly, this case is a poor vehicle for deciding the
scope of First Amendment defenses to discrimination
claims. 3
Dignity Health also argues that it provided Mr.
Minton “full and equal” access to care by rescheduling
his surgery at a different hospital. See Pet. 2, 9-10.
3

In fact, the court of appeal made clear that neutral practices
having merely a “disparate impact” on protected groups do not
violate the Unruh Act. Pet. App. 8-9. But it held that on
demurrer, it could not determine whether the Directives were in
fact neutral, and neutrally applied. Id.

21
But that argument is likewise contradicted by the
complaint, which alleges that Dignity Health’s initial
denial of Mr. Minton’s hysterectomy offered no
alternative, and that the other hospital became
available only after Mr. Minton had brought media
and political pressure to bear. The court of appeal held
that Mr. Minton’s allegation supported a claim that
Dignity Health’s initial denial violated the Unruh Act.
Pet. App. 12-14. But it noted that “upholding Minton’s
claim does not compel Dignity Health to violate its
religious principles if it can provide all persons with
full and equal medical care at comparable facilities
not subject to the same religious restrictions.” Id. at
15; id. at 2 (decision did not “determin[e] the right of
Dignity Health to provide its services in such cases at
alternative facilities, as it claims to have done here”).
The challenged decision therefore does not
address, much less settle, the constitutional questions
Dignity Health seeks to raise here. As the court of
appeal made clear, Dignity Health will have a full
opportunity to attempt to show that it did not violate
state law and to raise its constitutional and any other
defenses at summary judgment or trial.
B.

Resolution of the constitutional
questions Dignity Health raises may
be unnecessary to final disposition
of this case.

At this point in the case, it is not clear whether the
federal questions Dignity Health raises will ever need
to be decided in this case. As the court of appeal noted,
Dignity Health remains free to introduce evidence
regarding its Directives, their application, and

22
Dignity Health’s alleged offer of a substitute location
for Mr. Minton’s surgery. The court also explained
that, depending on how those factual issues are
resolved, there may be no Unruh Act violation. If so,
there would be no need to address the constitutional
questions Dignity Health seeks to raise now.
“It is a well-established principle that
constitutional questions should not be decided
unnecessarily.” Hudgens v. N.L.R.B., 424 U.S. 507,
531 (1976); see also Matal v. Tam, 137 S. Ct. 1744,
1755 (2017) (“[courts] ought not to pass on questions
of constitutionality . . . unless such adjudication is
unavoidable”) (citations and internal quotation marks
omitted); Camreta v. Greene, 563 U.S. 692, 705 (2011)
(“[A] longstanding principle of judicial restraint
requires that courts avoid reaching constitutional
questions in advance of the necessity of deciding
them.”) (citations and internal quotation marks
omitted); Adams v. Robertson, 520 U.S. 83, 90-91
(1997) (discussing Court’s interests in avoiding
“unnecessary
adjudication”
of
constitutional
questions as well as “promoting the creation of an
adequate factual and legal record”). Accordingly, this
Court should not agree to evaluate Dignity Health’s
constitutional defenses at this early stage of litigation,
when their consideration may not ever prove
necessary.
Moreover, resolution of any constitutional
questions should await a full record. Their resolution
might well be different if the courts below conclude
that Dignity Health turned Mr. Minton away because
he is transgender, as alleged, or based on a set of
neutral religious Directives, as Dignity Health

23
contends. The constitutional questions might also be
affected by how the Directives were applied, and the
chronology and details regarding Dignity Health’s
offer of an alternative location for the surgery. Until
those facts are developed, this case is not an
appropriate vehicle to resolve the questions Dignity
Health prematurely raises.
III.

There is no conflict among the circuits or
state high courts, and the decision below
is correct.

Dignity Health does not argue that the decision
below creates a conflict in the federal circuits or with
other state high courts. Instead, it argues that the
decision presents important federal questions, and
that the decision is at odds with various Supreme
Court precedents. But the cases it cites are all clearly
inapposite, and the decision below correctly concluded
that applying a neutral and generally applicable
nondiscrimination law to a religious entity that has
intentionally discriminated against a patient because
he is transgender does not violate the First
Amendment.
The Unruh Act is a neutral law of general
applicability that neither targets religious activity,
nor requires Dignity Health to express any statemandated message. This Court has never accepted
the argument that an evenly applied, neutral
nondiscrimination law violates the First Amendment,
and has stated that discriminatory conduct by
business entities “has never been accorded affirmative
constitutional protections.” Hishon v. King &
Spalding, 467 U.S. 69, 78 (1984) (internal quotation

24
marks omitted); see also Newman v. Piggie Park
Enters., Inc., 390 U.S. 400, 402 n.5 (1968); Heart of
Atlanta Motel, Inc. v. United States, 379 U.S. 241,
258–60 (1964). At this juncture, the court of appeal
has held only that the First Amendment does not give
a religiously affiliated hospital general license to
discriminate intentionally against patients because
they are transgender. That decision is fully consistent
with this Court’s precedents.
A.

Application of the Unruh Act here
does not violate Dignity Health’s
free exercise rights.

The court of appeal correctly held that a neutral
and generally applicable antidiscrimination law does
not violate the Free Exercise Clause merely because it
is applied to a religiously affiliated business. As this
Court explained in Employment Div. v. Smith, 494
U.S. 872 (1990), “the right of free exercise does not
relieve an individual of the obligation to comply with
a valid and neutral law of general applicability on the
ground that the law proscribes (or prescribes) conduct
that [their] religion prescribes (or proscribes).” Id. at
879 (internal quotation marks omitted). And in
Masterpiece Cakeshop, the Court reaffirmed that
religious objections do not permit businesses to evade
such nondiscrimination requirements. Masterpiece
Cakeshop, Ltd., 138 S. Ct. at 1727-28.
Dignity Health does not contest that the Unruh
Act is both neutral and generally applicable, nor does
it argue that the Unruh Act targets religiously
affiliated businesses or treats them differently from
secular businesses. Instead, Dignity Health seeks a

25
broad categorical exemption from a public
accommodations law of general applicability. Nothing
in this Court’s precedents supports such an
extraordinary exemption.
Dignity Health argues that the doctrine governing
neutral and generally applicable laws announced in
Smith should not apply because the burden it suffers
is “severe” and inherent to the relief Mr. Minton
seeks, not merely “incidental.” Pet. 28, 21. Smith’s
reference to neutral laws that “incidentally” burden
religion did not, however, turn on the size of the
burden, but rather on whether the statute in question
is targeted at religion, thereby imposing a “direct”
burden, or is neutral as to religion, and therefore has
only the “incidental” effect of burdening religion. The
Unruh Act, like the drug-use law in Smith, affects
religion only incidentally, not directly.
Dignity Health also suggests that Smith may
apply differently to individuals and institutions. But
there is no support for that proposition in Smith itself
or its progeny. Institutions, like individuals, are
obligated to abide by neutral and generally applicable
laws.
Trinity Lutheran Church of Columbia, Inc. v.
Comer, 137 S. Ct. 2012 (2017), is also plainly
distinguishable. There, a state policy “categorically
disqualif[ied]” churches and other religious entities
from participating in a state program subsidizing
installation of safe playground surfaces. Id. at 2017.
This Court held that the program violated the First
Amendment because it excluded churches from a
public benefit solely because of their religious status.

26
Id. at 2021; see also Espinoza v. Montana Dep’t of
Revenue, No. 18-1195, __S. Ct. __, 2020 U.S. LEXIS
3518, slip op. at 6-7, 12 (June 30, 2020) (Roberts, J.)
(finding free exercise violation where state
scholarship program excluded religious schools
because of their “status”). Here, by contrast, Dignity
Health does not seek the same treatment as other
public accommodations, but a special exemption from
a generally applicable law. As the Court explained in
Trinity Lutheran, “when this Court has rejected free
exercise challenges, the laws in question have been
neutral and generally applicable without regard to
religion.” Id. at 2020. The Unruh Act plainly fits that
description.
The ministerial exception cases are even further
afield. They concern the authority of a church to
choose its own leaders as a matter of church
governance; they have nothing to do with a right to
discriminate against members of the public as
customers. See, e.g., Hosanna-Tabor Evangelical
Lutheran Church & Sch. v. EEOC, 565 U.S. 171, 190
(2012) (distinguishing permissible “government
regulation of only outward physical acts” as in Smith
from ministerial exception cases that “concern[]
government interference with an internal church
decision that affects the faith and mission of the
church itself”); Our Lady of Guadalupe School v.
Morrissey-Berru, No. 19-267, slip op. at 10-11 (July 8,
2020) (Alito, J.) (ministerial exception “does not mean
that religious institutions enjoy a general immunity
from secular laws, but it does protect their autonomy
with respect to internal management decisions that
are essential to the institution’s central mission, …
[including] the selection of individuals who play

27
certain key roles”); EEOC v. Catholic Univ. of Am., 83
F.3d 455, 462 (D.C. Cir. 1996) (“the burden on free
exercise that is addressed by the ministerial exception
is of a fundamentally different character from that at
issue in Smith”).
For similar reasons, this case has no resemblance
to clergy members being forced to perform a religious
ritual that is contrary to their faith. Masterpiece
Cakeshop, Ltd., 138 S. Ct. at 1727. Indeed, as the
Court warned in Masterpiece Cakeshop, Ltd. “if that
exception were not confined, then a long list of persons
who provide goods and services” might refuse to do so
for same-sex couples or, as here, transgender
individuals, “thus resulting in a community-wide
stigma inconsistent with the history and dynamics of
civil rights laws that ensure equal access to goods,
services, and public accommodations.” Id.
B.

The court of appeal correctly held
that application of the Unruh Act
here does not violate Dignity
Health’s free speech or free
association rights.

The court of appeal also correctly held that
requiring Dignity Health not to deny “full and equal”
access to health services on the basis of gender
identity, without more, does not violate Dignity
Health’s free speech or free association rights. Here,
too, there is no conflict in the circuits, and the decision
below is correct.
Dignity Health argues that requiring it not to
discriminate against Mr. Minton, by allowing his
surgeon to perform a hysterectomy that it routinely

28
permits other doctors to perform, would compel it to
speak. But affording a private doctor access to a
hospital to perform a medical procedure does not
constitute speech under any conceivable definition of
the term. And in any event, the Unruh Act is a
regulation of business conduct without regard to what
that conduct communicates, and therefore even if it
incidentally regulated speech, it would at most be
subject to intermediate scrutiny, which it clearly
survives.
This Court has uniformly rejected businesses’ free
speech challenges to laws barring discrimination,
even where those businesses dealt in expressive goods
or services. See, e.g., Hishon, 467 U.S. at 78. Public
accommodation laws do not “target speech or
discriminate on the basis of its content, the focal point
of [their] prohibition being rather on the act of
discriminating against individuals in the provision of
publicly available goods, privileges, and services on
the proscribed grounds.” Hurley v. Irish-American
Gay, Lesbian & Bisexual Group of Boston, 515 U.S.
557, 572 (1995). And just as it did not violate law
schools’ First Amendment rights of speech or
association
to
require
them
to
permit
nondiscriminatory access to military recruiters,
despite the schools’ disagreement with the military’s
hiring policies, so, too, requiring Dignity Health to
provide nondiscriminatory access to a doctor to
perform a procedure the hospital permits for
nontransgender patients does not violate its First
Amendment rights. Rumsfeld v. Forum for Acad. &
Institutional Rights, Inc., 547 U.S. 47 (2006).

29
Dignity Health’s reliance on National Institute of
Family & Life Advocates v. Becerra, 138 S. Ct. 2361
(2018) (“NIFLA”), is misplaced. In NIFLA, the
challenged law required licensed clinics to “provide a
government-drafted script about the availability of
state-sponsored services.” Id. at 2371. The Unruh Act,
by contrast, does not require Dignity Health to say
anything, much less to read a particular script; the
statute merely requires it to provide “full and equal”
access to the services it voluntarily chooses to provide
to the public, without discriminating on the basis of
gender identity. The Act regulates Dignity Health’s
conduct, not its speech, and does not “compel[]
individuals to speak a particular message” or to
“alter[] the content of [their] speech.” Id. (internal
quotation marks omitted).
Hurley is also plainly distinguishable. That case
involved a “peculiar” application of a public
accommodation law to a privately organized parade
that this Court emphasized was “inherent[ly]
expressive[].” 515 U.S. at 568, 572. The application
was impermissible because, instead of regulating
business conduct with only an incidental effect on
expression, it regulated nothing but expression—the
content of the private parade sponsor’s speech. Id. at
573. In fact, as noted above, Hurley itself insisted that
the standard application of public accommodation
laws to the business conduct involved here is
constitutional. Id. at 578.
Nothing in this Court’s jurisprudence calls into
question the limited holding of the court of appeal that
applying a neutral and generally applicable law
prohibiting intentional discrimination to a religiously

30
affiliated business does not, without more, violate the
First Amendment.
IV.

There is no reason to hold this petition
for resolution of Fulton v. City of
Philadelphia.

There is no reason to hold this petition until the
Court has decided Fulton v. City of Philadelphia, No.
19-123, as Dignity Health urges. First, as elaborated
above, the preliminary posture of this dispute renders
it not reviewable at this stage. Supra Section I. And
even if the case were reviewable, it provides an
inappropriate vehicle to resolve the questions Dignity
Health presents, because they rest on facts not yet in
the record and wholly untested. Supra Section II.
These grounds for denying certiorari do not turn in
any way on the issues to be considered in Fulton.
Dignity Health nonetheless contends that this case
should be held pending disposition of Fulton because
the result in both cases depends on the Court’s
interpretation of Employment Division v. Smith. Pet.
2-4, 18-23. But the California Court of Appeal did not
rely on Smith in overruling Dignity Health’s
demurrer. Cf. Pet. App. 8-16. Rather, it merely held
the First Amendment does not bar assessment of
whether the hospital turned Mr. Minton away for
being transgender in violation of state law. Id. 14-16.
Allowing this case to move forward to determine
whether or not state law was violated does not
infringe Dignity Health’s First Amendment rights
under any standard. And even if the California courts
ultimately do find that Dignity Health violated the
Unruh Act, and if Dignity Health can show that its

31
First Amendment rights are implicated by that
finding, the Unruh Act satisfies strict scrutiny
because its ban on intentional discrimination by
businesses that choose to serve the public is narrowly
tailored to further California’s compelling interest in
ensuring that all of its residents have full and equal
access to the market, including the market for health
care. Thus, even if this Court should elect to revisit
the Smith standard in Fulton and to apply some
version of strict scrutiny, it would not affect the
outcome here. Moreover, the Fulton case may be
resolved without disrupting the holding of Smith. See
Brief for Petitioners at 22-30, Fulton v. City of
Philadelphia, No. 19-123 (May 27, 2020) (arguing
“Smith never should have applied to this case”).
CONCLUSION
The petition for a writ of certiorari should be
denied.
Respectfully submitted,
Amanda C. Goad
Counsel of Record
ACLU FOUNDATION OF
SOUTHERN CALIFORNIA
1313 West Eighth Street
Los Angeles, CA 90017
(213) 977-9500
agoad@aclusocal.org

32
David D. Cole
Daniel Mach
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, DC 20005
Lindsey Kaley
Rose A. Saxe
James D. Esseks
Louise Melling
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004
Christine Haskett
Lindsey Barnhart
Morgan E. Lewis
COVINGTON & BURLING
LLP
Salesforce Tower
415 Mission Street,
Suite 5400
San Francisco, CA 94105
Elizabeth O. Gill
ACLU FOUNDATION OF
NORTHERN CALIFORNIA
39 Drumm Street
San Francisco, CA 94111
Counsel for Plaintiff-Respondent Evan Minton

SUPPLEMENTAL APPENDIX

i
APPENDIX TABLE OF CONTENTS
Appendix F First Amended Verified Complaint
for Declaratory and Injunctive Relief
and Statutory Damages in the Superior
Court of California for the County of
San Francisco
(September 19, 2017) ................. App. 28

App. 28
APPENDIX F

SUPERIOR COURT OF THE STATE OF
CALIFORNIA
FOR THE COUNTY OF SAN FRANCISCO
EVAN MINTON
Plaintiff,
v.
DIGNITY HEALTH;
DIGNITY HEALTH d/b/a
MERCY SAN JUAN
MEDICAL CENTER

Case No. CGC 17558259

Defendant.
FIRST AMENDED VERIFIED COMPLAINT
FOR DECLARATORY AND INJUNCTIVE
RELIEF AND STATUTORY DAMAGES

App. 29
INTRODUCTION
1.
Plaintiff Evan Minton (“Plaintiff” or “Mr.
Minton”) sought and was denied access to medical
services by Defendant Dignity Health, doing business
as Mercy San Juan Medical Center (“Defendant” or
“MSJMC”), because he is transgender. MSJMC’s
denial to Mr. Minton of medical services that it
regularly provides to non-transgender patients is sex
discrimination and violates the Unruh Civil Rights
Act, Cal. Civ. Code § 51.
2.
As part of the medical treatment
stemming from his diagnosis of gender dysphoria, Mr.
Minton’s surgeon, Dr. Dawson, scheduled a
hysterectomy for Mr. Minton at MSJMC on August
30, 2016. Dr. Dawson regularly performs
hysterectomies at MSJMC, and in fact she had
another hysterectomy scheduled for a cisgender (nontransgender) patient immediately following Mr.
Minton’s scheduled procedure. In a conversation two
days before the scheduled procedure, however, Mr.
Minton notified MSJMC personnel that he is
transgender. The next day, Dr. Dawson was informed
that she would not be permitted to perform Mr.
Minton’s hysterectomy at MSJMC—either the
following day or any day.
3.
According to MSJMC personnel, Dr.
Dawson was prevented from performing Mr. Minton’s
hysterectomy at MSJMC because he is a transgender
man who sought the hysterectomy as treatment for
his diagnosed gender dysphoria. Gender dysphoria is
a serious medical condition resulting from the feeling
of incongruence between one’s gender identity and

App. 30
one’s sex assigned at birth, as experienced by
transgender individuals.
4.
Because Defendant routinely allows Dr.
Dawson and other physicians to perform
hysterectomies for cisgender patients at MSJMC to
treat medical indications other than gender
dysphoria, Defendant’s refusal to allow Dr. Dawson to
perform Mr. Minton’s hysterectomy at MSJMC
constitutes discrimination against Mr. Minton
because of his gender identity.
5.
Defendant’s discrimination violates
California’s Unruh Civil Rights Act, which broadly
prohibits
business
establishments
from
discriminating in the provision of goods and services
to the general public. The Unruh Act prohibits
discrimination based on sex, which is explicitly
defined to include gender identity. Cal. Civ. Code §
5l(b).
Refusing Mr. Minton hysterectomy care
because he is a transgender man seeking the
procedure as treatment for gender dysphoria
therefore violates California law.
6.
Mr. Minton seeks a declaratory
judgment that Defendant violates California law by
prohibiting doctors from performing hysterectomies
for transgender patients with gender dysphoria while
permitting doctors to perform hysterectomies for
cisgender patients without gender dysphoria. In
addition, Mr. Minton seeks an injunction requiring
Defendant to allow doctors to perform the same
procedures on transgender patients with gender
dysphoria that they are permitted to perform on
cisgender patients without gender dysphoria. Finally,
Mr. Minton seeks statutory damages under the Unruh
Civil Rights Act, Cal. Civ. Code § 52(a).

App. 31
JURISDICTION AND VENUE
7.
This Court has jurisdiction under article
VI, section 10, of the California Constitution and
California Code of Civil Procedure §§ 410.10, 525-26,
1060, and 1085.
8.
Venue in this court is proper because this
is an action against a nonprofit corporation, Dignity
Health, which has its principal place of business in the
City and County of San Francisco, at 185 Berry Street,
Suite 300, San Francisco, CA 94107. 1 Civ. Code §
395.5.
THE PARTIES
Plaintiff Evan Minton
9.
Plaintiff Evan Minton resides in
Orangevale, California, a suburb of Sacramento. Mr.
Minton is a transgender man, which means that he
was assigned the sex of female at birth, but his gender
identity is male and he identifies as a man.
Defendant Dignity Health
10.
Dignity Health is registered as a
501(c)(3) tax-exempt nonprofit corporation. According
to its website, Dignity Health is the fifth-largest
health system in the country, owning and operating a
Dignity Health describes itself as “a California nonprofit public
benefit corporation headquartered in San Francisco,” 2014 Form
990, Part III, Line 4a, and lists a San Francisco address for the
company. Dignity Health’s most recent Statement of
Information, filed with the California Secretary of State on
October 7, 2016, lists the corporation’s “Principal Office Address”
as 185 Berry Street, Suite 300, San Francisco, CA 94017.
1

App. 32
large network of hospitals. 2 Also according to its
website, Dignity Health is the largest hospital
provider in California, with 31 hospitals in the state 3.
In 2014, Dignity Health’s federal tax form 990 listed
revenue of over $10 billion and employment of 49,907
people. In Sacramento County, Dignity Health does
business as Mercy San Juan Medical Center. MSJMC
is located in Carmichael.
STATEMENT OF FACTS
Gender Dysphoria Diagnosis and Treatment
11.
“Gender identity” is a well-established
medical concept, referring to one’s sense of belonging
to a particular gender. Typically, people who are
designated female at birth based on their external
anatomy identify as girls or women, and people who
are designated male at birth based on their external
anatomy identify as boys or men. For a transgender
individual, however, gender identity differs from the
sex assigned to that person at birth. Transgender men
typically are men who were assigned “female” at birth,
but have a male gender identity.
12.
The medical diagnosis for the feeling of
incongruence between one’s gender identity and one’s
sex assigned at birth, and the resulting distress
caused by that incongruence, is “gender dysphoria”
(previously known as “gender identity disorder”).
Gender dysphoria is a serious medical condition
codified in the Diagnostic and Statistical Manual of
Mental Disorders (DSM-V) and International
2
3

http://www.dignityhealth.org/ cm/ content/pages/ about-us.asp
Id.

App. 33
Classification of Diseases (ICD-10). 4 The criteria for
diagnosing gender dysphoria are set forth in the DSMV (302.85).
13.
The widely accepted standards of care for
treating gender dysphoria are published by the World
Professional Association for Transgender Health
(“WPATH”). The WPATH Standards of Care have
been recognized as the authoritative standards of care
by leading medical organizations, the U.S.
Department of Health and Human Services, and
federal courts.
14.
Under
the
WPATH
standards,
treatment for gender dysphoria may require medical
steps to affirm one’s gender identity and help an
individual transition from living as one gender to
another. This treatment, often referred to as
transition-related care, may include hormone
therapy, surgery (sometimes called “sex reassignment
surgery” or “gender affirming surgery”), and other
medical services that align individuals’ bodies with
their gender identities. The exact medical treatment
varies based on the individualized needs of the person.
15.
Hysterectomy is surgery to remove a
patient’s uterus and is performed to treat a number of
Gender Dysphoria, American Psychiatric Association (2013),
http://www.dsm5.org/documents/gender%20dysphoria%20fact%
20sheet.pdf (“For a person to be diagnosed with gender
dysphoria, there must be a marked difference between the
individual’s expressed/experienced gender and the gender others
would assign him or her . . . Gender dysphoria is manifested in a
variety of ways, including strong desires to be treated as the
other gender or to be rid of one’s sex characteristics, or a strong
conviction that one has feelings and reactions typical of the other
gender.”).
4

App. 34
health conditions, including uterine fibroids,
endometriosis, pelvic support problems, abnormal
uterine bleeding, chronic pelvic pain, and
gynecological cancer. 5 A patient can no longer become
pregnant after undergoing a hysterectomy. 6 Thus,
hysterectomy is an inherently sterilizing procedure,
regardless of the reason for which it is performed.
According to the U.S. Department of Health and
Human Services, hysterectomy is the second most
common surgery, after a Cesarean section, among
women in the United States. 7
16.
Transgender
men
often
pursue
hysterectomy as a gender-affirming surgical
treatment for gender dysphoria. The United States
Transgender Discrimination Survey in 2015, which
surveyed almost 28,000 transgender people, found
that 14% of transgender men surveyed had undergone
a hysterectomy, and 57% wanted to undergo a
hysterectomy. 8 According to every major medical
organization and the overwhelming consensus among
medical experts, treatments for gender dysphoria,
including surgical procedures such as hysterectomy,
are effective and safe.
Hysterectomy, American College of Obstetricians and
Gynecologists (March 2015), http://www.acog.org/Patients/
FAQs/Hysterectomy#what.
6 Id.
7 Hysterectomy, Office on Women’s Health, U.S. Dept. of Health
& Human Services (2014), https://www.womenshealth.gov/
publications/our-publications/fact-sheet/hysterectomy.html#n.
8 James, S. E., Herman, J. L., Rankin, S., Keisling, M., Mottet,
L., & Ana, M. (2016). The Report of the 2015 U.S. Transgender
Survey. Washington, DC: National Center for Transgender
Equality. http://www.transequality.org/sites/default/files/docs/
usts/USTS%20Fu11%20Report%20-%20FINAL%201.6.17.pdf.
5

App. 35
Mr. Minton’s Gender Dysphoria and Treatment
17.
Mr. Minton first began to identify as
male and take social steps such as trying out different
male names and asking friends and family to call him
by male pronouns in 2011. He was subsequently
diagnosed with gender dysphoria. Pursuant to this
diagnosis and on the recommendation of his treating
physicians, Mr. Minton began to take additional steps
to continue his transition shortly after receiving the
diagnosis. He began hormone replacement therapy in
April of 2012 and had a bilateral mastectomy in July
of 2014. Mr. Minton legally changed his name by way
of court order in December 2014, and he legally
changed the gender shown on his driver’s license in
2015.
18.
By August 2016, Mr. Minton and his
treating physicians had a plan for a series of medical
procedures that would result in a phalloplasty, or the
surgical creation of a penis. 9 The first of these planned
steps was a complete hysterectomy, or removal of his
uterus, fallopian tubes, and ovaries. In Mr. Minton’s
case, hysterectomy was medically necessary care to
treat his diagnosis of gender dysphoria. This was the
professional opinion of Mr. Minton’s hysterectomy
surgeon and two mental health professionals who
assessed Mr. Minton during his transition.

“Phalloplasty in transgender men involves the creation of a
penis using any one of a number of procedures.” Phalloplasty
and metaoidioplasty - overview and postoperative considerations,
Center of Excellence in Transgender Health, http://www.trans
health.ucsf.edu/tcoe?page=guidelines­ phalloplasty.

9

App. 36
Defendant’s Discrimination Against Mr. Minton
on the Basis of his Gender Identity
19.
After consulting further with his
primary care physician and obstetrician/ gynecologist,
Dr. Lindsey Dawson, Mr. Minton scheduled his
hysterectomy with Dr. Dawson at MSJMC for August
30, 2016.
20.
Dr. Dawson has been practicing as a
board-certified obstetrician/gynecologist for 11 years
and has had admitting privileges at MSJMC since
2010. Dr. Dawson regularly performs about 1-2
hysterectomies per month at MSJMC.
21.
Two days prior to Mr. Minton’s
scheduled surgery, on August 28, 2016, a preoperation nurse called Mr. Minton to prepare him for
the surgery. During that conversation, Mr. Minton
mentioned that he is transgender.
22.
The next morning, a day before Mr.
Minton’s scheduled procedure, Dr. Dawson received a
call from MSJMC’s surgery department notifying her
that Mr. Minton’s hysterectomy had been cancelled.
23.
Dr. Dawson promptly contacted MSJMC
to inquire about and protest the cancellation of Mr.
Minton’s surgery. She initiated a telephone call to
MSJMC nurse manager Andrea Markham. Dr.
Dawson also spoke by phone that same day with
MSJMC’s president, Brian Ivie. Mr. Ivie informed Dr.
Dawson that she would never be allowed to perform a
hysterectomy on Mr. Minton at MSJMC.
24.
Mr. Ivie further informed Dr. Dawson
that MSJMC would not allow the hysterectomy to
proceed because of the “indication” it was intended to

App. 37
address. Mr. Minton’s medical file reflected an
“indication” of gender dysphoria, under that
condition’s former name of “gender identity disorder,”
and Mr. Minton had further informed the MSJMC
nurse the previous day that he was a transgender man
undergoing the procedure in conjunction with gender
transition.
25.
That same day, in the early afternoon of
August 29, Dr. Dawson called Mr. Minton and
informed him that Dignity Health had cancelled his
surgery. When Mr. Minton asked why, Dr. Dawson
explained her understanding that the hospital had
canceled his hysterectomy because he was
transgender. Mr. Minton was so shocked, hurt, and
distraught at hearing this news that he recalls
sinking to the ground and then collapsing entirely.
26.
Dignity Health’s refusal to allow Dr.
Dawson to perform Mr. Minton’s hysterectomy at
MSJMC on August 30, 2016 caused Mr. Minton great
anxiety and grief. He was devastated at learning that
he was being denied medically necessary care at
MSJMC because he was transgender and needed the
care for the purpose of gender transition.
27.
In addition, Mr. Minton had no time to
spare, as he needed to undergo his hysterectomy three
months before his phalloplasty, which was scheduled
for November 23rd. Mr. Minton had already
experienced numerous delays in accessing medical
care he needed for his gender transition, including
battles over insurance coverage and scheduling his
phalloplasty. As a result, the timing of his
hysterectomy was particularly sensitive.

App. 38
28.
During the same telephone call on
August 29, Dr. Dawson also informed Mr. Minton that
she had been and would continue advocating for him
with Dignity Health to push back against the
discriminatory cancellation decision.
29.
After he heard from Dr. Dawson that his
procedure had been cancelled, Mr. Minton invested
considerable effort in putting pressure on Dignity
Health to let him complete his surgery as soon as
possible.
30.
In the afternoon of August 29, Mr.
Minton participated in a recorded interview with local
television station KCRA about the cancellation of his
surgery. On information and belief, KCRA aired a
story about Mr. Minton’s experience of discrimination
on its August 29 late evening newscast. Mr. Minton
subsequently spoke with several other media outlets,
including the Sacramento Bee and local television
stations Fox 40 and ABC 10, each of which ran a story
about Mr. Minton’s experience of discrimination.
31.
In response to media inquiries, Dignity
Health issued a public statement regarding Mr.
Minton’s situation. As published on the KCRA
website on Tuesday, August 30, the statement read:
At Dignity Health Mercy San
Juan Medical Center, the services
we provide are available to all
members of the communities we
serve without discrimination.
Because of privacy laws, we are not
able to discuss specifics of patients’
care. In general, it is our practice
not to provide sterilization services

App. 39
at Dignity Health’s Catholic
facilities in accordance with the
Ethical and Religious Directives
for Catholic Health Care Services
(ERDs) and the medical staff
bylaws.
Procedures that induce sterility
are permitted when their direct
effect is the cure or alleviation of a
present and serious pathology and
a simpler treatment is not
available. When a service is not
offered the patient’s physician
makes arrangements for the care
of his/her patient at a facility that
does provide the needed service. 10
32.
Also on the afternoon of August 29, Mr.
Minton contacted Jenni Gomez, an attorney with
Legal Services of Northern California who had been
assisting him with other health care-related legal
issues. On information and belief, Ms. Gomez called
MSJMC on the afternoon of August 29 to challenge
the hospital’s discriminatory cancellation of Mr.
Minton’s surgery, and had multiple conversations
with hospital officials about this issue in the course of
the week.
33.
Also in the afternoon and evening of
August 29, Mr. Minton reached out to politicallyCarmichael faith-based hospital denies transgender
man hysterectomy, KCRA3 (Aug. 30, 2016, 8:50am),
http://www.kcra.com/article/carmichael-faith-based-hospitaldenies-transgender-man­hysterectomy/6430342 (last visited
Sept. 14, 2017).
10

App. 40
connected people he knew from his previous work as
an aide to California legislators to ask for their
assistance in pressuring Dignity Health to reverse the
cancellation of his surgery. For example, Mr. Minton
connected with staff members of California Insurance
Commissioner Dave Jones. On information and belief,
Mr. Jones spoke by telephone with Wade Rose, Vice
President of External & Government Relations for
Dignity Health, to ask that Mr. Minton be permitted
to access the care he needed. Also on information and
belief, over the ensuing hours and days, several state
legislators,
legislative
staff
members,
and
Sacramento-area lobbyists contacted Dignity Health
to advocate for Mr. Minton and/or made public
statements of support for him and his need for
surgery.
34.
On Tuesday, August 30, Dr. Dawson met
with Mr. Ivie in person at MSJMC. She also
participated in interviews with multiple media outlets
about Mr. Minton’s situation.
35.
During this flurry of advocacy on Mr.
Minton’s behalf, Dr. Dawson and others discussed
with Mr. Ivie and other Dignity Health officials the
possibility that Dr. Dawson could perform Mr.
Minton’s surgery at Methodist Hospital, a nonCatholic Dignity Health hospital also located in the
Sacramento metropolitan area. However, it was not
immediately clear that this was a viable option. Dr.
Dawson did not have surgical privileges at Methodist
Hospital. Even if she could get emergency privileges
at Methodist Hospital, Dr. Dawson would have to
work in an unfamiliar operating room there and with
an unfamiliar team of nurses, surgical technicians,
and other support staff. Methodist Hospital is located

App. 41
about 30 minutes’ drive away from MSJMC, such that
Dr. Dawson and the other physician who would be
assisting her during Mr. Minton’s procedure could not
easily fit a surgery at Methodist Hospital into a
workday filled with other commitments at MSJMC
and their nearby office. Finally, Mr. Minton had
health insurance coverage through Blue Shield of
California, and it was unclear whether Methodist
Hospital was within his plan’s coverage network.
36.
Dr.
Dawson
and
Mr.
Minton
communicated on Tuesday, August 30 and concluded
that attempting to make the surgery happen at
Methodist Hospital was the best remaining option for
Mr. Minton because it provided the best chance for
him to complete his hysterectomy promptly.
37
On information and belief, Dr. Dawson
then invested a significant amount of time in securing
emergency surgical privileges at Methodist Hospital,
while Ms. Gomez also invested a significant amount
of time in helping Mr. Minton access the surgery he
needed and resolve remaining issues.
38.
On Thursday, September 1, paperwork
regarding emergency surgical privileges for Dr.
Dawson at Methodist Hospital was fully executed.
39.
Dr. Dawson performed Mr. Minton’s
hysterectomy at Methodist Hospital on Friday,
September 2.
40.
Dr.
Dawson
routinely
performs
hysterectomies for her patients, and in fact performed
another hysterectomy at MSJMC for a cisgender
patient on August 30, 2016, the same day that Mr.
Minton’s surgery had originally been scheduled.
Other physicians who practice at MSJMC also

App. 42
regularly perform hysterectomies at the hospital for
cisgender patients who have not been diagnosed with
gender dysphoria, for indications such as chronic
pelvic pain and uterine fibroids.
41.
During the period of uncertainty when
he was not sure if he would be able to undergo his
hysterectomy at all, as well as when he was not sure
if he would be able to undergo his hysterectomy at
Methodist Hospital, Mr. Minton was painfully aware
that he had been denied full and equal access to the
operating room and related facilities of MSJMC as a
direct result of his disclosure to MSJMC staff on
August 28 that he is a transgender man. Mr. Minton
suffered—and continued to suffer, even after his
surgery was rescheduled at Methodist Hospital—the
dignitary harm of having been denied full and equal
access to medical treatment by MSJMC. Mr. Minton
told friends that he felt “downtrodden” and deeply
hurt by this discriminatory treatment.
42.
In addition, Methodist Hospital is
located much farther away than MSJMC from the
family home in Orangevale where Mr. Minton was
planning to recuperate after his hysterectomy. Thus,
moving the procedure increased the time and travel
burden on Mr. Minton and his mother who drove him
home after surgery.
43.
If Defendant is not enjoined from
preventing doctors from performing hysterectomy
procedures for transgender patients with gender
dysphoria in its hospitals, Mr. Minton and others
similarly situated—i.e., transgender individuals who
suffer from gender dysphoria—will be unlawfully
denied access to medical treatment at hospitals run by
the largest hospital provider in California.

App. 43
FIRST CAUSE OF ACTION
(Violation of The Unruh Act, Civ. Code § 51(b))
44.
Plaintiff incorporates by reference the
allegations of the above paragraphs as though fully
set forth herein.
45.
The Unruh Act prohibits discrimination
on the basis of sex in all business establishments.
Specifically, it guarantees that Californians are
entitled to the “full and equal accommodations,
advantages, facilities, privileges, or services in all
business establishments of every kind whatsoever”
regardless of their sex. Civ. Code § 51(b).
46.
The Unruh Act defines “sex” to include a
person’s gender. “Gender” means sex, and includes a
person’s gender identity and gender expression. Civ.
Code § 51(e)(5).
47.
Discrimination against an individual on
the basis of his or her gender identity is
discrimination on the basis of “sex” under the Unruh
Act.
48.
Defendant prevented Dr. Dawson from
performing Mr. Minton’s hysterectomy at MSJMC to
treat his diagnosis of gender dysphoria, a medical
condition unique to individuals whose gender identity
does not conform to the sex they were assigned at
birth and thus usually experienced by transgender
people.
49.
Defendant does not prohibit physicians
at its hospitals from treating cisgender people with
other diagnoses with hysterectomy.
50.
By preventing Dr. Dawson from
performing Mr. Minton’s hysterectomy, Defendant

App. 44
discriminated against Mr. Minton on the basis of his
gender identity as a transgender man.
51.
Defendant’s preventing Dr. Dawson
from performing Mr. Minton’s hysterectomy at
MSJMC is sex discrimination in violation of
California Civil Code § 51(b).
52.
Mr. Minton was denied full and equal
access to Defendant’s facilities and services in
violation of California Civil Code § 51(b) because he
was barred from undergoing a medically necessary
hysterectomy at MSJMC.
53.
Defendant’s discriminatory practices
caused Plaintiff considerable harm. Therefore, Mr.
Minton seeks injunctive relief and statutory damages
under the Unruh Act.
PRAYER FOR RELIEF
WHEREFORE, Plaintiff respectfully requests
that the Court:
A.
Enter a declaratory judgment stating
that Defendant’s preventing Mr. Minton’s physician
from performing his hysterectomy at MSJMC violated
the Unruh Act, Civil Code § 51(b).
B.
Enter an order for statutory damages of
$4,000 under the Unruh Act, Civil Code § 52(a).
C.
Enter an order enjoining Defendant, its
agents, employees, successors, and all others acting in
concert with them, from (1) discriminating on the
basis of gender identity or expression, transgender
status, and/or diagnosis of gender dysphoria in the
provision of health care services, treatment, and
facilities; and (2) preventing doctors from performing

App. 45
hysterectomy procedures in its hospitals on the basis
of a diagnosis of gender dysphoria.
D.
Enter an order requiring Defendant to
pay Plaintiff’s attorneys’ fees and costs under Civil
Code § 52.l(h), Civil Code § 52(a), Code of Civil
Procedure § 1021.5, and any other applicable statutes.
E.
Grant Plaintiff any further relief the
Court deems just and proper.
Dated: September 19, 2017
Respectfully Submitted,
By:___ /s/ Christine Saunders Haskett_____________
CHRISTINE SAUNDERS HASKETT (SBN 188053)
LINDSEY BARNHART (SBN 294995)
THEODORE KARCH (SBN 312518)
COVINGTON & BURLING LLP
One Front Street
San Francisco, CA 94111
Telephone: (415) 591-6000
Facsimile: (415) 591-6091
Email: chaskett@cov.com
AMANDA C. GOAD (SBN 297131)
RUTH DAWSON (SBN 290628)
MELISSA GOODMAN (SBN 289464)
ACLU FOUNDATION OF SOUTHERN
CALIFORNIA
1313 West Eighth Street
Los Angeles, CA 90017
Telephone: (213) 977-9500 x258
Facsimile: (213) 977-5297
Email: agoad@aclusocal.org

App. 46
ELIZABETH O. GILL (SBN 218311)
CHRISTINE P. SUN (SBN 218701)
ACLU FOUNDATION OF NORTHERN
CALIFORNIA, INC.
39 Drumm Street
San Francisco, CA 94111
Telephone: (415) 621-2493
Facsimile: (415) 255-8437
Email: egill@aclunc.org
DAVID LOY (SBN 229235)
ACLU FOUNDATION OF SAN DIEGO &
IMPERIAL COUNTIES
P.O. Box 87131
San Diego, CA 92138-7131
Telephone: (619) 232-2121
Facsimile: (619) 232-0036
Email: davidloy@aclusandiego.org
Attorneys for Plaintiff Evan Minton

App. 47
VERIFICATION
I, Evan Minton, have read paragraphs 9, 17-19,
21, 24-29, 30-33, 36, 39, and 41-42 of this Verified
Complaint for Declaratory and Injunctive Relief and
Statutory Damages in the matter of Minton v. Dignity
Health. The facts within these paragraphs are within
my own personal knowledge and I know them to be
true.
I declare under penalty of perjury under the
laws of the State of California that the foregoing is
true and correct.

Dated: September 19, 2017

/s/ Evan Minton
Evan Minton

